«*.: , *
Supreme Court, U.S
RECSEVED
FILED
UNIOif CORRECTIONAL INSTITUTION

20-7260 SEP 3 0 2019

No.

FEB OA^fel

OFFICE OF THE CLERK f|y-

FOR.

IN THE
SUPREME COURT OF THE UNITED STATES

AL RUE HOPKINS - PETITIONER
vs.
FLORIDA - RESPONDENT^)
ON PETITION FOR WRIT OF CERTIORARI TO

THE FIFTH DISTRICT COURT OF APPEAL OF FLORIDA

PETITION FOR WRIT OF CERTIORARI

AL RUE HOPKINS, DC# V09306
110 MELALEUCA DRIVE
CRAWFORDVILLE, FL 32327

QUESTION(S) PRESENTED
Whether Florida statues 316.1933(l)(a) violates Petitioner’s right
to be free from unreasonable searches and seizures where it
creates a categorical exigency exception to the warrant
requirement of the Fourth Amendment by requiring law
enforcement, who determine probable cause exists, to compel a
blood draw of any DUI suspect where death or great bodily injury
has resulted from that suspect’s operation of a motor vehicle?

1

LIST OF PARTIES

[V] All parties appear in the caption of the case on the cover page.

11

TABLE OF CONTENTS
OPINIONS BELOW................................................

1

JURISDICTION.........................

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF CASE.........................................

3
4

REASONS FOR GRANTING THE WRIT ...........................................

6

CONCLUSION......... .........................

9

INDEX TO APPENDICES
APPENDIX A

The Opinion of the Highest State Court to review the merits of
this case

APPENDIX B

The Opinion of the Volusia County Florida Circuit Court

in

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Birchfield v. North Dakota. 136 S. Ct. 2160,195 L. Ed. 2d 560 (2016)

5

Illinois v. McArthur. 531 U.S. 326,121 S. Ct. 946 148 L. Ed. 2d 838(2001)

6

Katz v. United States. 389 u.S. 347, 357, 88 S. Ct. 513, 19 L. Ed. 2d 573 (1967) 7
Kentucky v. King. 436 U.S. 499, 509 (1978)

6

Missouri v. McNeelv. 569 U.S. 141, 133 S. Ct. 1552, 185 L. Ed. 2d 696 (2013)

5

Michigan v. Tyler. 436 U.S. 499, 98 S. Ct. 1942, 56 L. Ed. 2d 486 (1978)

6

Mitchell v. Wisconsin. 27 Fla. L. Weekly Fed. SI 109a (June 26,2019)

6

Riley v. California. 573 U.S. 373 (2014)

7

Schmember v. California. 384 U.S. 757, 86 S. Ct. 1826, 16 L. Ed. 2d 908 (1966) 6

STATUTES AND RULES
Fla. Stat. §316.1933(1 )(a)

11

IV

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment
below.
OPINIONS BELOW
The opinion of the highest state court to review the merits appears at
Appendix A to the petition and is
[ ] reported at_____ _____________
; or,
[X] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the Volusia County, Florida Circuit court appears at
Appendix B to the petition and is
[ ] reported at _____________ - __________ _______
; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.

1

JURISDICTION
The date on which the highest state court decided my case was July 9,2019.
A copy of that decision appears at Appendix A.
The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Fourth Amendment to the United States Constitution provides that
“[t]he right of the people to be secure in their persons, houses, papers, and effects,
against unreasonable searches and seizures, shall not be violated, and no warrant
shall issue, but upon probable cause.”
Section 316.1933(1 )(a), Florida Statutes provides:
“If a law enforcement officer has probable cause to believe that a
motor vehicle driven by or in the actual physical control of a person
under the influence of alcoholic beverages, any chemical substances,
or any controlled substances has caused the death or serious bodily
injury to a human being, a law enforcement officer shall require the
person driving or in actual physical control of the motor vehicle to
submit to a test of the person’s blood for the purpose of determining
the alcoholic content thereof.”

3

STATEMENT OF THE CASE
The Petitioner was charged by information on November 2, 2011 with two
count of DUI Manslaughter and one count of Prior Refusal to Submit to Testing.
On April 28,2013, after hearing all evidence, argument, and instructions, the
jury returned a verdict finding Petitioner guilty of two counts of DUI Manslaughter
charged and the State Lol Pressed the Prior Refusal count.
On that same date Petitioner was sentenced to 15 years in the Florida
Department of Correction, consecutive on each count for a total sentence of 30
years.
Petitioner filed a Notice of Appeal, and on November 18, 2014, the Fifth
District Court of Appeal of the State of Florida entered a per curiam affirmed
opinion with a mandate being issued on January 6, 2015.
Petitioner filed a Petition for Writ of Habeas Corpus pursuant to Fla. R. App.
P. 3.850 on May 11, 2016 in which he alleged Ineffective Assistance of Trial
Counsel. Petitioner’s motion was denied after an evidentiary hearing on May 17,
2018.

Petitioner filed an Appeal of that order on June 13, 2018 and on July 20,
2019, the Florida Fifth District Court of Appeal entered a per curiam affirmed
opinion.

4

Petitioner filed a Second Motion for Postconviction Relief pursuant to Fla.
R. Crim. P. 3.850 on March 27, 2019 in which he asserted that Florida Statute
316.1933(l)(a) was unconstitutional and sought retroactive application of the
holdings in Missouri v. McNeelv. 569 U.S. 141, 133 S. Ct. 1552, 185 L. Ed. 2d
696 (2013) and Birchfield v. North Dakota. 136 S. Ct. 2160, 195 L. Ed. 2d 560
(2016). Petitioner’s motion was summarily denied on April 2,2019.
Petitioner filed an appeal on that order on April 30,2019 and on July 9,2019
the Florida Fifth District Court of Appeal entered a per curiam affirmed opinion
with a Mandate being issued on August 2,2019.
This Petition for Writ of Certiorari follows.

5

REASON FOR GRANTING THE PETITION
This Court has not previously addressed the categorical exigency
circumstances provisions of state statutes such as Fla. Stat. §316.1933(l)(a). The
provision of constitutional concern is whether bodily injury, harm or death may,
without more, serve as categorical exigency exceptions to justify a warrantless
blood draw to determine Blood Alcohol Content (BAC)?
It appears that Florida’s legislature in creating §316.1933(1 )(a) may have
derived its reasoning for the use of death or serious bodily injury of a human being
as a categorical exigency exception to the Fourth Amendment’s warrant
requirement from some of this Court’s decisions.
In Schmember v. California. 384 U.S. 757, 86 S. Ct. 1826, 16 L. Ed. 2d 908
(1966), this Court determined that an exigency exists when:‘Blood Alcohol
Content is dissipating and some other factor created pressing health, safety, or law
enforcement needs that would take priority over a warrant application.
Illinois v. McArthur. 531 U.S. 326, 330 (2001) this Court made clear that
“there are exceptions to the warrant requirement.”
This Court2 has also determined that the warrant requirement of the Fourth
Amendment is subject to certain “reasonable exceptions” to the warrant

See n.[l] of Justice Alito’s opinion in Mitchell v. Wisconsin. 27 Fla. L. Weekly Fed. SI 109a, (June 27,2019)
2 Kentucky v. King, 436 U.S. 499,509 (1978); see also Michigan v. Tvler. 436 U.S. 499, 509 (1978) allowing a state
to demonstrate a compelling need for official action and no time to secure a warrant.”

6

requirement. Exigent circumstances exception applies when “the needs of law
enforcement are so compelling that a warrantless search is objectively reasonable
under the Fourth Amendment.”
However, this Court has also determined3 that “[sjearches conducted outside
the judicial process, without prior approval by judge or magistrate, are per se
unreasonable under the Fourth Amendment - subject only to a few specifically
established and well delineated exceptions.”
Additionally, this court determined that “in the absence of a warrant, a
search is reasonable only if it falls within a specific exception to the warrant
requirement.” Riley v. California. 573 U.S. 373, 382 (2014).
This Court has also determined that exigency “must be determined case bv
case based on totality of circumstances.” Missouri v. McNeelv. 569 U.S. 141, 148,
133 S. Ct. 1552,1558,185 L. Ed. 2d 696 (2013) (emphasis added).
In McNeely this Court also determined that if officers “can reasonably
obtain a warrant before the efficacy of the sample... the Fourth Amendment
mandates that they should do so.” Id. 152 (emphasis added).
This Court should grant this Petition to answer the question of whether
Florida Statute 316.1933(l)(a) and others like it requiring (mandating) law
enforcement officers to compel blood draws of all DUI suspects, without a

3 Katz v. United States. 389 U.S. 347,357, 88 S. Ct. 513,19 L. Ed. 2d 573 (1967).

7

warrant, for BAC testing based upon predetermined categorical exigent
circumstances, results in a violation of the warrant requirement of the Fourth
Amendment.
Petitioner further asserts that this Court should grant the Petition to review
whether the constitutional Separation of Powers provisions4 are violated when state
legislatures enact laws which require law enforcement officers to order compulsory
warrantless blood draws thereby completely eliminating a review by neutral and
detached magistrate. Finally, this Court should grant this Petition to decide whether
the rule5 established by it in Mitchell, should extend to conscious drivers where
exigent circumstance, mandated or not, are used to justify the warrantless blood
draw from a DUI suspect for the purpose of BAC testing.

4 Both the Florida and United States Constitutions.
5 The rule appears to have established a two-part test: (1) whether the suspect’s blood would have not been drawn if
police had not been seeking BAC information, and (2) that police would not have reasonably judged that a warrant
apphcatron would interfere with other pressing needs or duties. It is noteworthy in this case that Petitioner can meet
both these criteria based upon the record testimony of law enforcement officers, however, this nile/test is rendered
moot m this case by §316.1933(l)(a) because an officer would violate the statute by not ordering a blood draw
regardless of a judicial determination to the contrary.

8

CONCLUSION
In view of the facts, law, and argument provided, Petitioner submits that the
petition for a writ of certiorari should be granted.

Respectfully submitted,

d//£

A1 Rue HopkitfS, DC#V09306
Date:

30 ao/9

9

